     Management Advisory Report



Single Audit of the State of Florida
    for the Fiscal Year Ended
          June 30, 2013




       A-77-14-00012 | June 2014
Single Audit of the State of Florida for the Fiscal Year Ended
June 30, 2013
A-77-14-00012
June 2014                                                                Office of Audit Report Summary

Objective                                 Finding

To report internal control weaknesses,    The single audit reported that the review of the 2014 Statewide Cost
noncompliance issues, and                 Allocation Plan identified excessive balances in the Purchasing and
unallowable costs identified in the       Communications Trust Funds at June 30, 2012. The excessive
single audit to the Social Security       balances resulted because revenues to sufficiently offset the
Administration (SSA) for resolution       unallowable costs or excessive fund balances had not been adjusted.
action.
                                          Recommendation
Background
                                          The single audit identified multiple Federal programs, including
The Florida Auditor General               SSA, responsible for resolving this finding. However, the
conducted the single audit of the State   Department of Health and Human Services will resolve this finding
of Florida. SSA is responsible for        on behalf of the Federal Government. Therefore, we are bringing
resolving single audit findings related   this matter to your attention, but are not making a recommendation.
to its Disability programs. The
Department of Health is the Florida
Division of Disability Determinations’
(DDD) parent agency.
MEMORANDUM
Date:      June 25, 2014                                                            Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Florida for the Fiscal Year Ended June 30, 2013 (A-77-14-00012)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Florida for the Fiscal Year ended June 30, 2013. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Florida Auditor General performed the audit. The results of the desk review conducted by
           the Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the Florida Auditor General and the reviews
           performed by HHS. We conducted our review in accordance with the Council of the Inspectors
           General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Florida Division of Disability Determinations (DDD) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The Florida DDD is
           reimbursed for 100 percent of allowable costs. The Department of Health is the Florida DDD’s
           parent agency.

           The single audit reported that the review of the 2014 Statewide Cost Allocation Plan identified
           excessive balances in the Purchasing and Communications Trust Funds at June 30, 2012. The
           excessive balances resulted because revenues to sufficiently offset the unallowable costs or




           1
            State of Florida, Compliance and Internal Controls over Financial Reporting and Federal Awards, In Accordance
           with OMB Circular A-133, For the Fiscal Year Ended June 30, 2013.
           http://www.myflorida.com/audgen/pages/pdf_files/2014-173.pdf#Page1 (last viewed June 16, 2014).
Page 2 - Gary S. Hatcher

excessive fund balances had not been adjusted. 2 As a result, a refund is due to the Federal
Government related to the excessive fund balances. 3 The corrective action plan indicated
refunds were being made to HHS and fee percentages were reduced to prevent future excessive
fund balances.

The single audit identified multiple Federal programs, including SSA, responsible for resolving
this finding. However, HHS will resolve this finding on behalf of the Federal Government.
Therefore, we are bringing this matter to your attention, but are not making a recommendation.

If you have questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                         Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. finding at 2013-031.
3
    The auditor did not determine the amount of unallowable costs attributed to each Federal program.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
